 DEPARTMENT OF HOMELAND SECURITY

           Office of Inspector General


   Better Administration of Automated Targeting
        System Controls Can Further Protect
         Personally Identifiable Information
                     (Redacted)




 NOTICE: The Department of Homeland Security, Office of Inspector General (OIG), has redacted this report for
 public release. A review under the Freedom of Information Act will be conducted upon request.




OIG-08-06                                                                  October 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                          October 16, 2007


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the adequacy and effectiveness of the department’s protection of personally
identifiable information (PII) collected, transmitted, and stored in Customs and Border Protection’s
(CBP) Automated Targeting System (ATS). It includes an evaluation of the operational and system
controls implemented to reduce the risks associated with the loss, misuse, unauthorized access to, or
modification of PII captured and stored in ATS. Our review was based on direct observations,
system security vulnerability assessments, queries of ATS user data, and analyses of applicable
documents. We obtained additional supporting information through interviews with employees and
officials located in CBP’s Program Office, Office of Field Operations, and Office of Information
Technology.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations


Executive Summary ............................................................................................................................. 1

     Background .................................................................................................................................... 2

     Results of Audit ............................................................................................................................. 4

            Effective Privacy Controls Implemented ........................................................................... 4
               Operational Controls ......................................................................................................... 5
               System Security Controls .................................................................................................. 5

            Administrative Oversight Concerns ................................................................................... 6
              Periodic Reviews of User Access to ATS-P ..................................................................... 6
              Configuration Management............................................................................................... 7

            Recommendations .................................................................................................................. 9

            Management Comments and OIG Analysis........................................................................... 9


Appendices
     Appendix A:            Purpose, Scope, and Methodology ..................................................................... 11
     Appendix B:            Management’s Response.................................................................................... 13
     Appendix C:            Summary of Significant Security Vulnerabilities Identified and Potential
                            Threats ..................................................................................................................16
     Appendix D:            Major Contributors to This Report..................................................................... 17
     Appendix E:            Report Distribution............................................................................................. 18


Abbreviations
     ATS                                               Automated Targeting System
     ATS-P                                             Automated Targeting System -Passenger
     CBP                                               Customs and Border Protection
     CSIRC                                             Computer Security Incident Response Center
     DHS                                               Department of Homeland Security
     OIG                                               Office of Inspector General
     PIA                                               Privacy Impact Assessment
     PII                                               Personally Identifiable Information
     SQL                                               Structured Query Language


                Better Administration of Automated Targeting System Controls Can Further Protect Personally Identifiable Information
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                       The Automated Targeting System (ATS) is an information system that
                       captures and stores personally identifiable information (PII), and is one of the
                       most advanced targeting systems in the world. Customs and Border
                       Protection (CBP) officers use the system to effectively and efficiently identify
                       cargo, individuals, or conveyances that may present a risk to the United States
                       and its citizens.

                       We evaluated whether the Department of Homeland Security is protecting the
                       PII collected, transmitted, and stored within ATS. In addressing our audit
                       objective, we focused on specific controls implemented for the ATS’
                       passenger database. The passenger database of ATS contains the majority of
                       PII stored within ATS that is used in CBP’s targeting efforts.

                       Generally, CBP has implemented robust operational and system security
                       controls to protect the PII contained within ATS. These controls are outlined
                       in the Privacy Impact Assessment for the Automated Targeting System and
                       provide for the protections needed to secure its data. CBP is effectively
                       employing these controls in protecting individuals’ PII. Control measures,
                       based on user’s roles and responsibilities, have been established for granting
                       access to system data. Additionally, all users are required to receive initial
                       and refresher computer security and privacy awareness training in order to
                       obtain and retain system access. Furthermore, network protection
                       mechanisms, such as firewalls and encryption, have been deployed to protect
                       the transmission of PII that is stored in ATS’ passenger database.

                       While a number of ATS controls have been implemented, CBP management
                       still needs to ensure that other established controls are better used in the
                       protection of PII. Specifically, management should ensure that periodic
                       reviews of users’ access privileges are being conducted and that user
                       privileges granted were properly authorized; user accounts that have not been
                       accessed within 90 days are disabled; and CBP’s Office of Internal Affairs
                       independently conduct internal reviews of user access according to
                       department and component policies. In addition,


       Better Administration of Automated Targeting System Controls Can Further Protect Personally Identifiable Information

                                                             Page 1
             management needs to remediate the system security vulnerabilities we
             detected pertaining to passwords and critical security patches.

             We recommended that the Commissioner direct CBP’s Offices of Field
             Operations and Internal Affairs to review access control lists to ensure they
             are current, and disable user accounts that have not been used in 90 days. We
             also recommended that CBP’s Chief Information Officer address the system
             security vulnerabilities identified.

             In response to our draft report, CBP concurred with our recommendations.
             CBP’s response is summarized and evaluated in the body of this report and
             included, in its entirety, as Appendix B.

Background
             The public’s sensitivity to the protection of PII heightened and generated
             concerns in the post 9/11 era. Many agencies capture PII and store it on their
             information systems, which causes great anxiety for both agencies and the
             public.

             PII is defined as information in a system or online collection that directly or
             indirectly identifies a specific individual. PII includes information about an
             individual’s education, financial transactions, medical history, criminal or
             employment history, and other information that can be used to distinguish or
             trace an individual’s identity, such as their name, Social Security Number,
             date and place of birth, mother’s maiden name, and biometric records,
             including fingerprints.

             One of the systems storing PII is ATS, which became operational within CBP
             in 1993. ATS is the cornerstone for all CBP targeting efforts. CBP uses ATS
             to improve the collection, analysis, and dissemination of information that is
             gathered for the primary purpose of targeting, identifying, and preventing
             potential terrorists and weapons from entering the United States.

             Automated Targeting System-Passenger (ATS-P), a database within ATS, is
             deployed at all ports-of-entry (air, ship, and rail) and has been used in
             evaluating (“target”) passengers prior to arrival into the United States since
             1999. ATS-P contains PII collected directly from commercial carriers in the
             form of a passenger name record, which is then used to target suspicious
             individuals. ATS-P also receives various real-time information from other
             CBP systems and law enforcement databases.
                                                                                           .
             The ATS architecture and data sources are depicted on the next page.


                      Better Administration of ATS Controls Can Further Protect PII

                                                 Page 2
Note: This diagram depicts the ATS architecture and the flow of data, including passenger airline manifests, immigration
and customs information, and passenger name record data, from multiple sources (on the right) transmitted to the ATS
application and into the ATS-P database. Users (on the left) access the data through a World Wide Web (i.e., Internet)
connection to CBP’s local area network.

                          A significant amount of data regarding passengers and crew members entering
                          or departing the United States is collected and maintained in ATS, including
                          name, address, dates of travel, contact information, frequent flier and benefit
                          information, all available payment and billing information, travel itinerary,
                          ticketing information, baggage information, passenger and crew manifests,
                          and immigration control information. DHS has a duty to protect that
                          information from loss and misuse. The loss or compromise of ATS data can
                          have severe consequences, affecting national security, United States citizens,
                          and the department’s missions.

                                     Better Administration of ATS Controls Can Further Protect PII

                                                                Page 3
               There is substantial public and foreign interest in DHS’ collection and use of
               ATS data and the potential privacy implications in the event of disclosure.
               The privacy implications include:
               •   Potential threats to personal information during transmission.
               •   Violations of passenger rights.
               •   Unauthorized access to PII stored within ATS, especially ATS-P.
               •   Personal identity theft.

Results of Audit
               Overall, CBP has implemented adequate privacy and system security controls
               over the PII collected, transmitted, and stored in ATS-P to effectively protect
               the information from loss, misuse, unauthorized access, or modification. We
               determined that CBP has implemented robust controls for the protection of PII
               maintained in ATS and shared with external agencies. We also identified that
               CBP can better administer its management and oversight to strengthen the
               effectiveness of its privacy controls. Our audit included a review of the ATS
               Privacy Impact Assessment (PIA) and operational and system security
               controls implemented.

Effective Privacy Controls Implemented
               The ATS PIA, dated November 22, 2006, accurately documents the privacy
               protections implemented to protect the PII that is collected, transmitted, and
               stored within ATS-P. The PIA adequately describes the administrative,
               technical, and physical controls established for storing and safeguarding PII
               data to prevent unauthorized access. It also documents the privacy risks
               associated with the potential misuse of PII data or breach of the system. To
               mitigate the risks pertaining to the number of users with access to PII, the PIA
               lists specific controls related to:

               •   User profile management.
               •   Definition of a user’s rights and responsibilities.
               •   Audit log generation to document all users’ access to ATS.
               •   Sharing of data, based on a need-to-know, case-by-case basis, consistent
                   with federal, DHS and CBP policies, and applicable arrangements and
                   agreements.
               •   Information security and privacy awareness training.

               CBP has established guidelines and procedures to ensure that ATS use is
               consistent with the PIA and privacy policy. CBP also has implemented a
               number of operational and system security controls to govern user access and
               information sharing. Furthermore, CBP requires that all of its officers be

                       Better Administration of ATS Controls Can Further Protect PII

                                                  Page 4
trained on the limited uses for which ATS information may be used in
connection with their official duties.

   Operational Controls

   CBP has implemented effective operational safeguards to protect the PII
   data within ATS, specifically ATS-P. These measures are designed to
   reduce the risks associated with the intentional and unintentional actions
   of system users, which could potentially result in the loss, misuse,
   modification, or unauthorized disclosure of ATS data. For example, CBP
   has:

   •   Established interconnection security agreements with internal and
       external agencies, as well as foreign countries. The agreements
       stipulate the privacy safeguards needed to protect the transmission of
       PII shared between the connecting information systems.

   •   Created a formal Computer Security Incident Response Center
       (CSIRC). All incidents of misuse of CBP systems are to be reported to
       CBP’s CSIRC. The CSIRC provides real-time network monitoring,
       intrusion detection, and incident handling.

   •   Developed security and privacy awareness training requirements. All
       ATS users are required to receive initial computer security and privacy
       awareness training before system access may be granted; users who
       have system access need to attend refresher training to keep it. From a
       random sample of      of the        ATS-P users, we determined that
          of the users had received the required security and privacy
       awareness training. The account for the one user who did not receive
       the training was locked to prevent that user from any further access to
       ATS-P.

   System Security Controls

   Along with operational controls, CBP has implemented technical and
   logical access controls to effectively protect sensitive PII data in the
   ATS-P database. The following processes are in place:

   •   User access - Access to ATS is granted only after the completion of a
       background investigation, the submission of a supervisor-approved
       access request form, and the completion of initial security and privacy
       training. Data can only be accessed using encrypted passwords and



        Better Administration of ATS Controls Can Further Protect PII

                                   Page 5
                     user sign-on functionality. All users are assigned “Read Only” access
                     to ATS-P, and all authorized access is based on a user’s
                     “need-to-know.” CBP’s process for granting ATS access limits the
                     number of users who are allowed to view PII data and protects ATS
                     from unauthorized changes.

                 •   Separation of duties - CBP has clearly defined separation of duties to
                     prevent any one person from subverting a critical process or otherwise
                     compromise ATS system controls or data. We noted that the database
                     administrator and programmer roles ensure a complete separation of
                     duties between maintaining the ATS-P database and maintaining the
                     ATS application.

                 •   Transmission of data - CBP has implemented point-to-point encryption
                     of information between ATS users and the ATS web servers to protect
                     PII data in transit. The encryption device settings indicated all ATS
                     traffic in and out of the CBP network at the National Data Center is
                     encrypted.

Administrative Oversight Concerns
              CBP policies and procedures clearly indicate that ATS-P user roles are highly
              restricted and audited; however, the greatest risk to the security and privacy of
              PII housed in ATS stems from insider threats. To ensure data is adequately
              protected from insider threats, management has to be vigilant in protecting
              ATS and the ATS-P database from potential misuse. To protect against
              threats involving potential misuse, it is imperative that CBP management
              actively monitor the administrative controls implemented to reduce security
              risks.

              Better oversight is needed to ensure that periodic reviews of user access and
              the timely deployment of system security patches and updates occur.
              Additionally, management needs to ensure that system security controls
              related to the enforcement of DHS’ password policy are properly configured
              and implemented.

              Periodic Reviews of User Access to ATS-P

              CBP is not reviewing user access privileges on a periodic basis, nor are they
              disabling user accounts after 90 days of inactivity. According to the DHS
              4300A Sensitive Systems Handbook, supervisors have a responsibility to
              ensure that access control lists are current and up-to-date by reviewing access
              privileges. Information Systems Security Officers are responsible for


                       Better Administration of ATS Controls Can Further Protect PII

                                                  Page 6
ensuring that access control reviews are being conducted. Furthermore, the
ATS PIA and CBP policy require that CBP management and the Office of
Internal Affairs conduct periodic reviews of ATS and the user access control
list. DHS policy and the ATS System Security Plan require that CBP disable
user accounts after 90 days of inactivity.

From a sample of      users with access to ATS-P,     of the    users were
granted privileges that they were not authorized to receive. We also analyzed
the ATS-P user access list to determine whether user accounts were disabled
after 90 days of inactivity. We identified that        users have active
accounts although they had not logged onto the system in more than 5 months
(October 1, 2006 to March 28, 2007). Furthermore, as of May 7, 2007, CBP’s
Office of Internal Affairs had not conducted any reviews of ATS this fiscal
year.

Since user access privileges may change over time, it is imperative that
reviews are conducted more frequently than on an annual basis. These
reviews should ensure that user access privileges are current and the privileges
granted are authorized. Users should be granted only the most restrictive set
of privileges needed to perform tasks authorized. Furthermore, by not
disabling accounts after 90 days of inactivity, management is allowing users,
who may no longer require access to ATS, the opportunity to misuse PII.

Configuration Management

Generally, CBP has implemented configuration and logical access controls to
effectively protect the PII data contained within ATS-P. However, additional
measures could be implemented to further secure PII and comply with DHS
policies.

Configuration management is a set of technical controls designed to provide
system administrators with tools to maintain information systems in a secure
manner to ensure that agency requirements are applied to specific system
security settings. These controls afford a layer of protection from internal and
external threats to privacy data through the use of security mechanisms, such
as password complexity rules, session timeouts, lockout thresholds, and
manufacturer-supplied security patches and updates.

We conducted system security vulnerability assessments of the ATS-P
database to identify system vulnerabilities, determine
                              . Based on these assessments, the majority of
high-risk vulnerabilities detected related to the enforcement of strong
passwords and application of critical security patches:


        Better Administration of ATS Controls Can Further Protect PII

                                   Page 7
•   ATS’ Information Systems Security Officer did not implement DHS’
    policy for                 until            , after our system security
    vulnerability assessments were completed. Our assessments detected that
        of the         ATS-P accounts were
               . For of those accounts, the assigned
                      .

•   Further,
                       . Although CBP has                                   policies and
    procedures,

                       .

Appendix C contains a summary of the high vulnerabilities identified and the
potential threats.

DHS 4300A Sensitive Systems Handbook requires                                                  ,

                   .

                                                                                           .
DHS policy also requires that components

                                                                   .


                              .


          .
                                                           .
                                                                        .


                                  .

                                                               .
                                                                                     .




        Better Administration of ATS Controls Can Further Protect PII

                                      Page 8
Recommendations
We recommend that the Commissioner, CBP, direct the Office of Field
Operations and the Office of Internal Affairs to:

Recommendation #1: Periodically review ATS access control lists to verify
that users were granted only the level of access privileges authorized.

Recommendation #2: Disable ATS user accounts that have been inactive for
90 days or perform a risk assessment to determine whether management is
willing to accept the risk of not disabling user accounts according to CBP
policies.

We recommend that the Commissioner, CBP, direct its Chief Information
Officer to:

Recommendation #3: Address ATS security vulnerabilities regarding
                            .

Management Comments and OIG Analysis
CBP concurred with recommendation 1. CBP managers will review the ATS
access control list on at least a biannual basis to verify users have received
only the level of access authorized.

We agreed that the steps CBP plans to take satisfy this recommendation.

CBP concurred with recommendation 2. CBP managers are conducting a
review to identify ATS-P user accounts that have been inactive for 90 days in
order to disable the accounts. Subsequently, in conjunction with CBP
                                                , CBP will implement a
procedure to inactivate ATS accounts that have had 30 days of
consecutive inactivity. CBP also will make a determination whether to seek a
waiver of the 30-day policy for ATS-P accounts with
“Quick Query –only” access.

We agreed that the steps CBP plans to take satisfy this recommendation.

CBP concurred with recommendation 3.


         .



        Better Administration of ATS Controls Can Further Protect PII

                                   Page 9
                                .


                                                                        .

                                       .

We agreed that the steps CBP plans to take satisfy this recommendation.




        Better Administration of ATS Controls Can Further Protect PII

                                    Page 10
Appendix A
Purpose, Scope, and Methodology


                        The overall objective of this audit was to determine whether the department is
                        properly protecting PII collected, transmitted, and stored in ATS.
                        Specifically, we determined whether:
                        •  ATS’ PIA adequately depicted the operational controls implemented for
                           protecting PII data.
                        •  Operational, technical, and system logical access controls were effective
                           in protecting ATS’ PII data.

                        Our audit focused on the controls implemented to protect the privacy of the
                        data contained in ATS-P, which contains the majority of PII. We analyzed the
                        security posture of the ATS-P database only. Other operational and system
                        security controls relating to ATS’ other modules will be tested at a later date.

                        To accomplish our audit objective, we evaluated the ATS PIA and the
                        information technology controls implemented to protect sensitive ATS data.
                        We also reviewed:
                        •   DHS 4300A Sensitive Systems Handbook (dated March 1, 2007).
                        •   DHS Management Directive 0470.2 – Privacy Act Compliance.
                        •   DHS’                                             .
                        •   CBP’s
                                               .
                        •   The Privacy Act of 1974.
                        •   Office of Management and Budget Memorandum (OMB) Memorandum
                            M-06-15, Safeguarding Personally Identifiable Information (dated May
                            22, 2006).
                        •   OMB Memorandum M-07-16, Safeguarding Against and Responding to
                            the Breach of Personally Identifiable Information (dated May 22, 2007).
                            Additionally, we conducted interviews, documented on-site observations,
                            conducted system security vulnerability testing, and performed analytical
                            queries of ATS-P user data.

                        We ensured that security and privacy awareness training policies and
                        procedures had been established. To determine whether ATS users were
                        complying with CBP’s security and privacy awareness training policy, we
                        randomly selected and analyzed the training documentation for a sample of
                        ATS-P users.

                        In determining whether the operational controls CBP implemented were
                        effective in protecting ATS’ PII data, we interviewed CBP personnel
                        regarding the processes and procedures for granting access to the ATS-P
                        database and system security. We interviewed the Privacy Office personnel

                                  Better Administration of ATS Controls Can Further Protect PII

                                                            Page 11
Appendix A
Purpose, Scope, and Methodology


                        regarding the handling procedures for incidents involving PII issues.
                        Additionally, we interviewed the Office of Internal Affairs personnel
                        regarding periodic reviews of ATS-P user access privileges and activity.

                        We analyzed the ATS-P user access list to evaluate users’ roles and privileges.
                        We judgmentally sampled the ATS-P users to verify whether required
                        background investigations were conducted and supervisory authorizations
                        were submitted before granting and creating ATS user accounts.

                        We conducted system security vulnerability assessments to determine whether
                        technical and logical and access controls were effective in protecting ATS’ PII
                        data. We analyzed the security controls over servers, databases, and network
                        devices that supported ATS at the                       . Furthermore, we
                        determined that network protection mechanisms, such as firewalls and
                        intrusion detection, had been deployed. Encryption and authentication
                        methods used to protect ATS data were evaluated.




                                                               .

                                  .


                                                                        .


                                            . We coordinated our audit efforts with CBP
                        headquarters, CBP’s Office of Field Operations, and CBP’s Office of
                        Information Technology. Fieldwork was completed from March 2007
                        through July 2007 under the authority of the Inspector General Act of 1978, as
                        amended, and according to generally accepted government auditing standards.
                        Major OIG contributors to the audit are identified in Appendix D.

                        The principal OIG points of contact for the audit are Frank W. Deffer,
                        Assistant Inspector General, Information Technology Audits, at
                        (202) 254-4100, and Edward G. Coleman, Director, Information Security
                        Audit Division, at (202) 254-5444.




                                      Better Administration of ATS Controls Can Further Protect PII

                                                                   Page 12
Appendix B
Management’s Response




                        Better Administration of ATS Controls Can Further Protect PII

                                                  Page 13
Appendix B
Management’s Response




                        Better Administration of ATS Controls Can Further Protect PII

                                                  Page 14
Appendix B
Management’s Response




                        Better Administration of ATS Controls Can Further Protect PII

                                                  Page 15
Appendix C
Summary of Significant Security Vulnerabilities Identified and Potential Threats




                                            High Risk Vulnerabilities

      Vulnerability                                                                     Potential Threats

                                                               √

                                                               √

                                        √

                                        √

                                        √

                                        √

                                                               √


                                                               √

                                                               √

                                                               √

                                                               √

                                                               √

                                                               √

                                                               √

                                                               √

                                                               √

                                                               √




                                     Better Administration of ATS Controls Can Further Protect PII

                                                               Page 16
Appendix D
Major Contributors to This Report


                         Information Security Audit Division
                         Edward G. Coleman, Director
                         Barbara Bartuska, Audit Manager
                         Tarsha Ross, Senior IT Auditor
                         Mike Horton, IT Specialist
                         Swati Mahajan, IT Specialist
                         Thomas Rohrback, Management and Program Assistant
                         Shannon Frenyea, Referencer

                         Advanced Technology Division
                         Marcus Badley, Senior Security Engineer




                                    Better Administration of ATS Controls Can Further Protect PII

                                                              Page 17
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Executive Secretary
                      Assistant Secretary, Legislative Affairs
                      Assistant Secretary, Policy
                      Assistant Secretary, Public Affairs
                      General Counsel
                      Office of Security
                      Office of Privacy
                      Chief Information Officer (CIO)
                      Deputy CIO
                      Chief Information Security Officer
                      CIO, Customs and Border Protection (CBP)
                      Deputy CIO & Information Systems Security Manager, CBP
                      Director, Departmental Government Accountability Office/OIG Liaison
                      Office
                      Director, Compliance and Oversight Program
                      Audit Liaison, CBP
                      Audit Liaison, CIO
                      Director, Information Security Audit Division

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                              Better Administration of ATS Controls Can Further Protect PII

                                                        Page 18
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG website at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
